                                CLOSEOUT FOR M-97090027

          On 5 September 1997, OIG received a letter from the complainant' in which he expressed
  concern about possible unethical behavior by the subject.* Specifically, the complainant was
  concerned that the subject's part ownership of a small company3 affected his judgment about
  some of his research. The complainant explained that this small company participated in a
  state-initiated4and -supported experiment for waste reclamation. Consequently, the complainant
  alleged that the subject's association with the company created a conflict of interests (COI) that
  impaired the objectivity of his state-supported research. The complainant stated that the
  subject's institution had been contacted twice by letter about this and other issues related to the
  experiment.

           OIG reviewed the subject's proposal and award history. The subject submitted six
  proposals to NSF over 11 years between March 1984 and May 1995. He received one award in
   1984,' but, since that time, he has received no NSF support. In 1995, when the subject submitted
  his most recent pr~posal,~    NSF's current COI policy was not in effect. At that time, NSF held
. the grantee institution "primarily responsible for regulation of potential or actual conflicts of
  interest,"' urging them to adhere to sound principles. Under NSF's current COI policy,
  institution organizational representatives must certify that a written COI policy is implemented
  and enforced. This policy requires that any identified conflicts of interests be managed "prior to
  the institution's expenditure of any funds under the award."' OIG concluded that there was no
  need to take further action in this case because the institution has been informed about the
  subject's alleged COI, and no Federal funds were expended since the subject's proposal was
  declined.

         This case is closed and no further action will be taken.

  cc: staff scientist, AIG-Oversight, legal, IG




                                                  Page 1 of 1                           M 97-27
